No.

IN THE
SUPREME COURT OF THE UNITED STATES
ROBERT KELVIN LINDBLOOM,
PETITIONER
v.
MANATEE COUNTY, A POLITICAL
SUBDIVISION OF THE STATE OF FLORIDA,
TANYA SHAW, DONALD COURTNEY,
TOM WOOTEN, KATHARINE ZAMBONI
RESPONDENTS
PROOF OF SERVICE
I, Robert Kelvin Lindbloom, do swear or declare that on this date, 8-XX-2020, as required by Supreme
Court Rule 291 have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
AND PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party’s
council, and every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within three calendar days.
The names and addresses of those served are as follows:
Supreme Court
1 First Street NE
Washington, DC 20453
Shannon L. Kelly
1477 West Fairbanks Avenue
Winter Park, Florida 32789

Skelly @ anblaw.com

I declare under penalty of peijury that the foregoing is true and correct
Executed on August XX, 2020

" "AUG 3 1 ?l)20
9ra%°^oHuERcTL5RsK

